Report No. DODIG-2013-059                   March 21, 2013




     Air Force Needs Better Processes to Appropriately
     Justify and Manage Cost-Reimbursable Contracts
Additional Copies
To obtain additional copies of this report, visit the Department of Defense Inspector
General website at http://www.dodig.mil/pubs/index.cfm, or contact the Secondary
Reports Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms
AFB                           Air Force Base
AFRL                          Air Force Research Lab
CLIN                          Contract Line Item Number
COR                           Contracting Officer’s Representative
DCAA                          Defense Contract Audit Agency
DFARS                         Defense Federal Acquisition Regulation Supplement
FAC                           Federal Acquisition Circular
FAR                           Federal Acquisition Regulation
SBIR                          Small Business Innovation Research
                                INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE 

                                 4800 MARK CENTER DRIVE 

                              ALEXANDRIA, VIRGINIA 22350-1500 




                                                                          March 21, 2013

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: Air Force Needs Better Processes to Appropriately Justify and Manage
         Cost-Reimbursable Contracts (Report No. DODIG-2013-059)

We are providing this repmt for your review. Air Force contracting personnel did not
consistently implement the Federal Acquisition Regulation revisions for the use of cost­
reimbursable contracts for 75 contracts, valued at approximately $8.8 billion, of the 156
contracts reviewed, valued at approximately $10.5 billion. We reviewed contracts at four
Air Force sites. We are required to perform this audit in accordance with the FY 2009
National Defense Authorization Act, section 864, "Regulation on the Use of Cost
Reimbursement Contracts." This is the first in a planned series of audit repmts.

We considered management comments on a draft of this report when preparing the final
report. Comments from the Deputy Assistant Secretary of the Air Force (Contracting),
the Director, Defense Procurement and Acquisition Policy, and the Director of Contracts,
Warner Robins Air Force Sustainment Center conformed to the requirements of DoD
Directive 7650.3; therefore, additional comments are not required.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9077 (DSN 664-9077).




                                                                               -
                                           Cla"""... 1.1~L
                                           J:acqu1i\Tile     ·. cJf vJ~
                                                         L. Wicecarver
                                             Assistant Inspector General
                                             Acquisition and Contract Management
Report No. DODIG-2013-059 (Project No. D2012-D000CG-0121.000)                      March 21, 2013

               Results in Brief: Air Force Needs Better
               Processes to Appropriately Justify and
               Manage Cost-Reimbursable Contracts
What We Did                                               What We Recommend
We are required to perform this audit in                  We recommend that the Deputy Assistant
accordance with the FY 2009 National Defense              Secretary of the Air Force (Contracting)
Authorization Act, section 864, “Regulation on            emphasize the FAR revisions to contracting
the Use of Cost Reimbursement Contracts.”                 personnel; consider issuing more hybrid
Our objectives were to determine whether Air              contracts; establish better communication
Force complied with interim Federal                       channels to identify areas to transition to
Acquisition Regulation (FAR) revisions on the             firm-fixed-price contracts; and require
use of cost-reimbursable contracts by                     contracting officers to document instances
documenting: that approval for the cost-                  where they maintained oversight functions. We
reimbursable contract was at least one level              recommend that the Director, Defense
above the contracting officer; that cost-                 Procurement and Acquisition Policy, initiate a
reimbursable contracts were justified; how the            process to reduce the potential contradiction
requirements under contract could transition to           between Defense Federal Acquisition
firm-fixed-price in the future; that Government           Regulation Supplement 242.75 and FAR
resources were available to monitor the cost-             revisions. We recommend that Director of
reimbursable contract; and that contractors had           Contracting, Warner Robins Air Force
an adequate accounting system in place during             Sustainment Center, adjust templates to include
the entire contract. This is the first in a planned       approval above the contracting officer.
series of audit reports on DoD compliance with
the interim rule for the use of cost-reimbursable
                                                          Management Comments and
contracts.                                                Our Response
What We Found                                             The Deputy Assistant Secretary of the Air Force
                                                          (Contracting) agreed and will issue clarifying
Of the 156 contracts reviewed, valued at about            memoranda and adjust templates used in the
$10.5 billion, Air Force contracting personnel            acquisition planning phase. We consider these
did not consistently implement the interim rule           comments responsive. The Director, Defense
for 75 contracts, valued at about $8.8 billion.           Procurement and Acquisition Policy agreed and
Air Force contracting personnel issued contracts          will review potential contradictions. We
that did not follow the interim rule because they         consider these comments responsive. The
were unaware of the rule, assumed it did not              Director of Contracts, Warner Robins Air Force
apply to task or delivery orders when the basic           Sustainment Center agreed and stated that they
contract was issued before the rule, or did not           will require a Streamlined Acquisition Strategy
document actions taken to conform to the rule.            Summary or a Determination and Findings for
As a result, Air Force contracting personnel may          cost-reimbursable contracts, both of which
increase the Air Force’s risk because cost-               document approval one level above the
reimbursable contracts provide less incentive for         contracting officer. We consider these
contractors to control costs. We identified               comments responsive. Please see the
internal control weaknesses for implementing              recommendations table on the back of this page.
the interim rule changes regarding the use of
cost-reimbursable contracts.
                                                      i
Report No. DODIG-2013-059 (Project No. D2012-D000CG-0121.000) March 21, 2013


Recommendations Table

         Management                  Recommendations       No Additional Comments
                                    Requiring Comment                Required
Deputy Assistant Secretary of the                         1.a, 1.b, 1.c, and 1.d
Air Force (Contracting)
Director of Defense Procurement                           3
and Acquisition Policy
Director of Contracting, Warner                           2
Robins Air Force Sustainment
Center




                                         ii
Table of Contents

Introduction	                                                                       1    


      Objectives                                                                    1    

      Background                                                                    1    

      Interim Rule Requirements and Our Interpretation                              2

      Contracts Reviewed                                                            4

      The Small Business Innovation Research Program                                4

      Review of Internal Controls                                                   5


Finding. Sites Visited Inconsistently Implemented the Interim Rule	                 6


      More Consistent Documentation Procedures Needed to Fully Implement        

              FAR Revisions                                                         7

      Personnel Generally Obtained Proper Approval for a Cost-Reimbursable 

              Contract                                                              7

      Justification Generally Documented for the Use of a Cost-Reimbursable 

              Contract Type                                                         8

      Inadequate Documentation to Support Efforts to Transition Subsequent 

              Requirements to Firm-Fixed-Price Contracts                        10 

      Ensuring that Government Resources Were Available to Monitor 

              Award Varied by Site                                              11 

      Verifying That an Adequate Accounting System Was in Place Varied by 

              Site                                                              12       

      Firm-Fixed-Price Contracts Properly Classified                            14 

      Conclusion                                                                14           

      Recommendations, Management Comments, and Our Response                    14 


Appendixes

      A. 	Scope and Methodology                                                 17 

             Universe and Sample Information                                    17 

             Review of Documentation and Interviews                             18 

             Use of Computer Processed Data                                     19 

             Use of Technical Assistance                                        19 

             Prior Coverage                                                     19           

      B. Federal Acquisition Circular 2005-50 Issued March 16, 2011             21 

      C. Contract Compliance with Interim Rule Requirements 	                   26 

Table of Contents (cont’d)

Management Comments

     Department of the Air Force                  35 

     Defense Procurement and Acquisition Policy   38 

     Warner Robins Air Force Sustainment Center   39 

Introduction
Objectives
Our objectives were to determine whether Air Force contracting personnel complied with
interim Federal Acquisition Regulation (FAR) revisions regarding the use of cost-
reimbursable1 contracts. Specifically, we determined whether Air Force contracting
personnel implemented the interim rule by documenting:

        that approval for the cost-reimbursable contract was at least one level above the
         contracting officer;
        that the use of cost-reimbursable contracts was justified;
        how the requirements under the contract could transition to firm-fixed-price in the
         future;
        that Government resources were available to monitor the cost-reimbursable
         contract; and
        that contractors had an adequate accounting system in place during the entire
         contract.

We also determined whether Air Force personnel were intentionally misclassifying
contracts as firm-fixed-price to avoid the increased cost-reimbursable contract
documentation requirements.

We plan to issue separate reports for each Service, one report to include the Missile
Defense Agency and the Defense Microelectronics Activity, as well as a summary report.
This is the first report in the planned series of reports and includes cost-reimbursable
contracts issued by the Department of the Air Force at the four sites visited. See
Appendix A for the scope and methodology and prior coverage related to the objectives.

Background
Section 864 of the FY 2009 National Defense Authorization Act requires FAR revisions
regarding the documentation of decisions and approvals necessary before issuance of
other than firm-fixed-price contracts and that the DoD Inspector General audit DoD’s
compliance with the changes within 1 year of policy issuance. Federal Acquisition
Circular (FAC) 2005-50 issued March 16, 2011, implemented the required revisions on
an interim basis. This interim rule was effective immediately and was not subject to
public comment before issuance. FAC 2005-50 amended FAR Part 7, “Acquisition
Planning,” FAR Part 16, “Types of Contracts,” and FAR Part 42, “Contract
Administration and Audit Services.” The final rule was published in the Federal Register
on March 2, 2012, without significant changes that would affect our audit objectives. To
promote savings in Federal contracting, contracting personnel should choose the


1
  We use “cost-reimbursable” to describe any type of contract other than firm-fixed-price contracts
throughout the report, such as labor hour and time and materials contracts.


                                                     1

appropriate contract type. See Appendix B for a copy of the interim rule, Federal
Acquisition Circular 2005-50 issued March 16, 2011.

Interim Rule Requirements and Our Interpretation
We divided our objective into five areas based on the interim rule. We interpreted parts
of the interim rule for each of these areas to determine what we would accept as adequate
documentation in the contract file. Contracting personnel were required by the interim
rule to include the justification, approval, and transition areas of our objective in the
acquisition planning documentation. For each of these areas, we accepted documentation
anywhere in the contract file because some of the acquisition plans were completed
before the interim rule. Contracting personnel were not required by the interim rule to
document that adequate resources and an adequate accounting system were available
specifically within the acquisition planning documentation.

Approval
Air Force contracting personnel were required by the interim rule to obtain approval of a
cost-reimbursable contract at least one level above the contracting officer. FAC 2005-50
states, “The contracting officer shall document the rationale for selecting the contract
type in the written acquisition plan and ensure that the plan is approved and signed at
least one level above the contracting officer.” Air Force contracting personnel were
required by the interim rule to document this approval in the acquisition plan. We
accepted any documentation in the contracting files that stated the contract type was cost-
reimbursable and was reviewed and signed by an Air Force official above the contracting
officer as evidence of having met the interim rule requirement.

Justification
Air Force contracting personnel were required by the interim rule to justify the use of a
cost-reimbursable contract. FAC 2005-50 states:

               [a]cquisition personnel shall document the acquisition plan with findings that detail the
               particular facts and circumstances, (e.g., complexity of the requirements, uncertain
               duration of the work, contractor’s technical capability and financial responsibility, or
               adequacy of the contractor’s accounting system), and associated reasoning essential to
               support the contract type selection.

Air Force contracting personnel were required by the interim rule to document the
justification in the acquisition plan. We determined that Air Force contracting personnel
followed the interim rule by completing a Determination and Findings Memorandum on
contract type anywhere in the contract file; it included discussion of research and
development efforts with results that cannot be precisely described in advance.

Transition
Air Force contracting personnel were required by the interim rule to document the
potential of cost-reimbursable contracts to transition to firm-fixed-price contracts.




                                                 2

FAC 2005-50 states:

               [f]or each contract (and order) contemplated, discuss the strategy to transition to
               firm-fixed-price contracts to the maximum extent practicable. During the requirements
               development stage, consider structuring the contract requirements, e.g., contract line
               items (CLINS), in a manner that will permit some, if not all, of the requirements to
               be awarded on a firm-fixed-price basis, either in the current contract, future option years,
               or follow-on contracts.

We interpreted this section of the interim rule to require an explanation of the potential to
transition to a firm-fixed-price contract or a justification as to why the particular effort
will never be able to transition to a firm-fixed-price contract. Air Force contracting
personnel were required by the interim rule to document this strategy in the acquisition
plan. We determined that Air Force contracting personnel were following the interim
rule if they issued contracts that had both firm-fixed-price and cost-reimbursable CLINs
along with a statement in the contract file that allowed the firm-fixed-price CLINs to be
used when appropriate. We also determined that contracts noting that the award will not
be able to transition to a firm-fixed-price contract for various reasons met the intent of the
interim rule.

Adequate Resources
Air Force contracting personnel were required by the interim rule to document that
adequate resources are available to manage a cost-reimbursable contract. FAC 2005-50
states:

               [a] cost-reimbursement contract may be used only when adequate Government resources
               are available to award and manage a contract other than firm-fixed-priced (see 7.104(e))
               including— (i) Designation of at least one contracting officer’s representative (COR)
               qualified in accordance with 1.602–2 has been made prior to award of the contract or
               order.

We interpreted this section of the interim rule to require evidence of an appropriate
contracting officer’s representative (COR) or similarly qualified individual being
assigned to the contract. We obtained the COR nomination letter, signed acceptance by
the COR, and COR training documents. Air Force contracting personnel were not
required by the interim rule to document this evidence in any specific location of the
contract file. Although assigning a COR to the contract identifies an individual to
manage a contract, it does not always indicate that adequate Government resources are
available to monitor the contract as required by the interim rule. We identified the
assignment of a COR on the contracts rather than testing the adequacy of the CORs
assigned to the contracts reviewed.

Adequate Accounting System
Air Force contracting personnel were required by the interim rule to determine the
adequacy of the contractor’s accounting system during the entire period of performance
for cost-reimbursable contracts. FAC 2005-50 states, “Determine the adequacy of the
contractor’s accounting system. The contractor’s accounting system should be adequate
during the entire period of contract performance.” We interpreted this section of the


                                                   3

interim rule to require documentation that the contracting officer concluded the
accounting system was adequate. At a minimum, we required a statement in the file that
the accounting system was adequate based on information from Defense Contract Audit
Agency (DCAA) or Defense Contract Management Agency officials responsible for
monitoring the contractor. We also accepted the contracting officer’s conclusion or other
documents, such as rate verifications and e-mails, from DCAA and Defense Contract
Management Agency as adequate documentation. We focused our audit on identifying
whether the contracting officer made a determination that the accounting system was
adequate at contract award, rather than during the entire period of performance, as
required by the interim rule.

Contracts Reviewed
Our Federal Procurement Data System–Next Generation queries identified 3,808 contract
actions on 1,378 cost-reimbursable, labor-hour, or time-and-materials contracts issued by
the Air Force from March 17, 2011 through February 29, 2012, valued at approximately
$26 billion; however, this includes the value of all potential options and any
firm-fixed-price portions of the contracts. We reviewed 156 contracts, with cost-
reimbursable portions, valued at approximately $10.5 billion; 2 of the 156 contracts
reviewed accounted for approximately $7.4 billion of this amount. We selected the four
Air Force sites based on a combination of cost-reimbursable award amounts and number
of cost-reimbursement contracts issued. The Air Force sites visited were Hanscom Air
Force Base (AFB), Massachusetts; Offutt AFB, Nebraska; Air Force Research
Laboratory (AFRL), Rome, New York; and Warner Robins AFB, Georgia. Table 1
shows the number of basic contracts and the task or delivery orders reviewed and the
contract value at each site.

                             Table 1. Contracts Reviewed
        Site              Basic       Task/Delivery    Total           Contract Value
                         Contracts       Order                           (billions)*
Offutt AFB                   0             50            50                $0.80
AFRL Rome                   22             12            34                  0.20
Hanscom AFB                 10             18            28                 8.19
Warner Robins
                              30                14             44            1.28
AFB
   Total                      62                94            156          $10.47
*
  Contract value includes total of all cost-reimbursable elements.


The Small Business Innovation Research Program
The Small Business Innovation Research (SBIR) program is a three-phase program that
encourages domestic small businesses to engage in Federal research and development
that has the potential for commercialization. The SBIR program was developed to
increase small business opportunity in federally funded research and development,
stimulate high-tech innovation, and increase private-sector commercialization. The SBIR


                                             4

program was established under the Small Business Innovation Development Act of 1982;
the U.S. Small Business Administration serves as the coordinating agency. Phase I of the
program is designed for exploration of the technical merit or feasibility of an idea or
technology. A firm-fixed-price contract is almost always used for this phase. Phase II,
typically a cost-plus-fixed-fee contract, consists of the research and development work in
which the developer also evaluates commercialization potential. During Phase III, the
developer moves toward commercialization of the innovation. SBIR program funds
cannot be used for Phase III. We did not target or avoid SBIR contracts as part of our
nonstatistical sample because the interim rule does not include an exception for SBIR
contracts.

The SBIR Desk Reference for Contracting and Payment, states that according to FAR
Subpart 16.3, “Cost-Reimbursement Contracts,” a cost-reimbursable contract may be
used only when the contractor’s accounting system is adequate for determining costs
applicable to the contract and requires Government surveillance during the performance
of the contract. Air Force Instruction 12.1, “Small Business Innovation Research
Proposal Submission Instructions,” requires all Phase II awardees to have a DCAA
approved accounting system. Contracting personnel are encouraged to require an
accounting system approval prior to the Phase II award timeframe. Air Force contracting
personnel relied on the accounting system pre-approval requirement set by the Air Force
Instruction 12.1 when awarding SBIR cost-reimbursable contracts.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for implementing the changes required by the interim rule regarding the use
of cost-reimbursable contracts. The four Air Force sites visited did not always update
checklists, procedures, or other guidance for issuing and administering
cost-reimbursement contracts. Specifically, the Air Force did not always have
procedures to document the potential of cost-reimbursement contracts to transition to
firm-fixed-price contracts. Additionally, the Air Force did not have procedures to ensure
that adequate Government resources were always available to monitor the contract before
award or verify the adequacy of the contractor’s accounting system throughout the entire
period of contract performance. We will provide a copy of the report to the senior
official in charge of internal controls in the Air Force and in the Office of the Under
Secretary of Defense for Acquisition, Technology, and Logistics.




                                            5

Finding. Sites Visited Inconsistently
Implemented the Interim Rule
Of the 156 contracts reviewed, valued at approximately $10.5 billion, Air Force
contracting personnel did not consistently implement the interim rule for 75 contracts,
valued at approximately $8.8 billion. Air Force contracting personnel fully met the
interim rule on 81 contracts, valued at approximately $1.7 billion of the 156 contracts
reviewed. Contracting personnel stated they issued contracts that did not meet the
interim rule because they:

       were unaware of the rule;
       operated under the assumption that the rule did not apply to task or delivery
        orders issued when the basic contract was issued before the rule; or
       did not document the specific actions taken to conform with the rule.

Specifically, Air Force contracting personnel did not:
   	 obtain approval for the use of a cost-reimbursable contract for 39 contracts,
       valued at approximately $374 million, of the 156 contracts––Air Force
       contracting personnel stated that the type of contract was already approved
       because the contract was issued under the SBIR program or a Broad Agency
       Announcement2 that recommended the use of a cost-reimbursable contract;
   	 justify the use of a cost-reimbursable contract for 25 contracts, valued at 

       approximately $424 million, of the 156 contracts;

   	 document the possibility of a transition to a firm-fixed-price contract for
       42 contracts, valued at approximately $8 billion, of the 156 contracts––Air Force
       contracting personnel stated they did not document how the award could
       transition because they had no reason to believe the contract would ever transition
       to a firm-fixed-price contract;
   	 make adequate Government resources available for 23 contracts, valued at
       approximately $7.4 billion, of the 156 contracts––Air Force contracting personnel
       stated they did not assign a COR because the contract values were minimal and
       other awards received priority for the limited COR resources; and
   	 verify the adequacy of the contractor’s accounting system for 42 contracts, valued
       at approximately $1 billion, of the 156 contracts––Air Force contracting
       personnel stated they were not able to obtain timely assistance from DCAA or did
       not question that the accounting system was adequate because the contract was
       awarded to a well-established contractor.

As a result, Air Force contracting personnel continue to issue cost-reimbursable contracts
that may inappropriately increase the Air Force’s contracting risks because cost-
reimbursable contracts provide less incentive for contractors to control costs.


2
 Broad Agency Announcements included contracts issued for Defense Advanced Research Projects
Agency.


                                                6

More Consistent Documentation Procedures Needed to
Fully Implement FAR Revisions
Air Force contracting personnel fully implemented FAR revisions on 81 contracts, valued
at approximately $1.7 billion, of the 156 contracts reviewed. The cost-reimbursable
portions of the 156 contracts were valued at approximately $10 billion.3 Contracting
                                       personnel implemented portions of the interim rule
       Contracting personnel           for the other 75 contracts, valued at approximately
    implemented portions of the        $8.8 billion, but failed to consistently include
      interim rule for the other       documentation in the contract files to meet the
     75 contracts…but failed to        interim rule. We make one DoD-wide
         consistently include          recommendation in this report and will include
   documentation in the contract       other DoD-wide recommendations in the summary
                files.                 report issued at the completion of this series of
                                       reports. See Appendix C for tables showing interim
rule compliance by contract. Air Force contracting officials should emphasize the
importance of the Federal Acquisition Regulation revisions to contracting personnel for
the use of cost-reimbursable contracts.


Personnel Generally Obtained Proper Approval for a
Cost-Reimbursable Contract
Air Force contracting personnel obtained proper approval for the use of a
cost-reimbursable contract for 117 contracts, valued at approximately $10 billion, of the
156 contracts reviewed. In the 39 cases of noncompliance, valued at approximately
$374 million, contracting officers stated they were not aware of the new requirements, or
believed the type of contract was already approved, because the contract was issued
under the SBIR program or a broad agency announcement that suggested the use of a
cost-reimbursable type contract.

Air Force contracting personnel described their contracting procedures and explained
their interpretation of the interim rule at each site visited. Air Force contracting
personnel documented approval in the signed Price Negotiation Memorandum, the
Justification and Review Document, the Business Clearance Memorandum, and in the
Determination and Finding of Contract Type. Site-specific explanations of contracts
which did not satisfy the interim rule included:

       	 Offutt AFB contracting personnel stated that some task or delivery orders did not
          have a contract type determination because the basic contracts were issued before
          the interim rule. Additionally, Offutt AFB contracting officials used a review
          process where branch chiefs approved another branch of contracting officers use
          of cost reimbursable contracts. This was compliant with the interim rule except in
          cases where other branch chiefs were required to be listed as the contracting


3
    Contract values used throughout the report refer to cost-reimbursable portions of each contract.


                                                        7

      officer because of the high dollar value of the contract. In those instances, branch
      chiefs approved cost-reimbursable awards of other branch chiefs, which is not one
      level above the contracting officer as required by the interim rule.
   	 Hanscom AFB contracting personnel stated that no individual Determination and
      Finding was necessary because the task or delivery order was based on a contract
      with only one CLIN for research and development.
   	 Warner Robins AFB contracting personnel used a Price Negotiation
      Memorandum that did not include a signature line for approval one level above
      the contracting officer.

We interpreted the interim rule to apply to task or delivery orders, regardless of the
timing of the basic contract award, and to require approval at least one level above the
contracting officer, regardless of the CLIN structure. We also did not consider the lack
of a signature line to be a valid explanation for not documenting approval one level above
the contracting officer.

Warner Robins AFB contracting personnel did not meet the interim rule requirement to
document approval of a cost-reimbursable contract one level above the contracting
officer for 23 of the 44 contracts reviewed. We recommend that the Director of
Contracts, Warner Robins Air Force Sustainment Center, adjust templates to require
approval one level above the contracting officer for the use of cost-reimbursable
contracts. We made this recommendation specific to Warner Robins AFB because over
half of the contracts reviewed did not meet the interim rule. Table 2 shows the total
contracts reviewed at each site and the number of those contracts that did not meet this
section of the interim rule.

  Table 2. Results of Level of Approval One Level Above the Contracting Officer
         Site                  Total Contracts        Did Not Meet Interim Rule
Offutt AFB                           50                           13
AFRL Rome                            34                            0
Hanscom AFB                          28                            3
Warner Robins AFB                    44                           23
 Total                              156                           39


Justification Generally Documented for the Use of a
Cost-Reimbursable Contract Type
Air Force contracting personnel satisfied the interim rule requirement to justify a
cost-reimbursable type contract for 131 contracts, valued at approximately $10 billion, of
the 156 contracts reviewed. However, Air Force contracting personnel did not satisfy the
interim rule’s requirement to justify a cost-reimbursable type contract for 25 contracts,
valued at approximately $424 million, because contracting personnel stated they were
either not aware of the rule, operated under the assumption that the rule did not apply to



                                            8

task or delivery orders issued on basic contracts dated before the rule, or did not
document the actions taken to conform with the rule.

Air Force contracting personnel described their contracting procedures and explained
their interpretation of the interim rule at each site visited. Air Force contracting
personnel documented proper justification in the Determination and Finding of Contract
Type, the market research section of the Justification and Approval for Other than Full
and Open Competition, the Acquisition Plan, and the Price Negotiation Memorandum.
Site-specific explanations of contracts which did not satisfy the interim rule included:

   	 Offutt AFB contracting personnel stated that some task or delivery orders did not
      have a contract type determination because the basic contracts were issued before
      the interim rule.
   	 AFRL Rome contracting personnel stated that they issued SBIR contracts which
      required prior acquisition planning and justification to issue a cost-reimbursable
      contract.
   	 Hanscom AFB contracting personnel stated that a separate justification should not
      have been required on task or delivery orders resulting from a basic contract
      which only had one CLIN for research and development studies.

We interpreted the interim rule to apply to task or delivery orders regardless of the timing
of the basic contract award. We accepted documentation of prior acquisition planning
and justification to issue a cost-reimbursable contract for SBIR contracts. We also
interpreted the interim rule to require justification of contract type regardless of the CLIN
structure.

Table 3 shows the total contracts reviewed at each site and the number of those contracts
that did not meet this section of the interim rule. Contracting personnel at Offutt AFB
did not meet the interim rule requirement to justify the use of a cost-reimbursable
contract type for 17 of the 50 contracts reviewed. Air Force officials should emphasize
the importance of the Federal Acquisition Regulation revisions to contracting personnel
for the use of cost-reimbursable contracts.

          Table 3. Justified the Use of a Cost-Reimbursable Contract Type
         Site                   Total Contracts         Did Not Meet Interim Rule
Offutt AFB                             50                            17
AFRL Rome                              34                             0
Hanscom AFB                            28                             1
Warner Robins AFB                      44                             7
 Total                                156                            25




                                              9

Inadequate Documentation to Support Efforts to
Transition Subsequent Requirements to
Firm-Fixed-Price Contracts
Air Force contracting personnel did not document the possibility of a transition to a
                                      firm-fixed-price contract for 42 contracts, valued at
   Contracting personnel did not      approximately $7.9 billion,4 of the 156 contracts
    document the possibility of a     reviewed. In cases of noncompliance, Air Force
  transition to a firm-fixed-price    contracting personnel stated they were not aware of
     contract for 42 contracts.       the requirement or did not document how the award
                                      could transition because they had no reason to
believe the contract would ever transition to a firm-fixed-price contract in the future.

Air Force contracting personnel described their contracting procedures and explained
their interpretation of the interim rule at each site visited. Air Force contracting
personnel documented the possibility of transition to firm-fixed-price in the Acquisition
Plan, the Justification and Approval for Other than Full and Open Competition, the
Determination and Finding of Contract Type, and the Price Negotiation Memorandum.
We determined that Air Force contracting personnel were following the interim rule if
they issued hybrid contracts5 with a statement in the contract file that allowed the
firm-fixed-price CLINs to be used when appropriate. For example, Hanscom AFB
contracting personnel satisfied the interim rule by stating, “There is insufficient
information to estimate the cost with sufficient certainty to use any type of
firm-fixed-price contract line item.” We also determined that contracts noting that the
award will not be able to transition to a firm-fixed-price contract met the intent of the
interim rule. For example, AFRL Rome contracting personnel satisfied the interim rule
by stating, “Circumstances do not allow the agency to define its requirements sufficiently
to allow for a fixed-price type contract.” Site-specific explanations of contracts which
did not satisfy the interim rule included:

    	 Offutt AFB contracting personnel stated that many of the delivery or task orders
       reviewed were issued from basic contracts dated before the interim rule.
    	 AFRL Rome contracting personnel stated that the majority of their contracts are
       inherently cost type because they are for research and development and have too
       much uncertainty to be awarded as firm-fixed-price. AFRL Rome contracting
       personnel also stated that they will consider revising their templates to include
       this rationale to correct the issue.
    	 Hanscom AFB contracting personnel stated that no individual Determination and
       Finding was necessary because the task or delivery order was based on a contract
       with only one CLIN for research and development.



4
  The contracts, valued at approximately $7.9 billion, include 2 contracts valued at about $7.4 billion.
5
  According to the Office of Federal Procurement Policy, a hybrid contract allows contracting officers to
choose between fixed-price, cost-reimbursement, or time and materials line items to match each
requirement with the appropriate pricing method.


                                                    10

       	 Warner Robins AFB contracting personnel stated that they were unaware of the
          requirement to document the potential of a cost-reimbursable contract to transition
          to firm-fixed-price.

Air Force contracting officials should promote the issuance of more hybrid contracts that
contain multiple line items for the same service or item with different price structure so
that contract type can be selected on each task or delivery order. Air Force personnel
should also establish better communication channels between the requiring component
and contract monitors to more effectively identify opportunities to transition away from
cost-reimbursable contracts when possible. Table 4 shows the total contracts reviewed at
each site and the number of those contracts that met this section of the interim rule.
Offutt AFB contracting personnel did not meet the interim rule requirement to document
efforts to transition subsequent contracts to firm-fixed-price for 25 of the 50 contracts
reviewed.

Table 4. Results of Efforts to Transition Subsequent Contracts to Firm-Fixed-Price
         Site                   Total Contracts         Did Not Meet Interim Rule
Offutt AFB                            50                             25
AFRL Rome                             34                              1
Hanscom AFB                           28                              7
Warner Robins AFB                     44                              9
 Total                               156                             42


Ensuring that Government Resources Were Available to
Monitor Award Varied by Site
Contracting personnel at Offutt AFB and AFRL Rome generally met the interim rule
requirement to make adequate Government resources available to monitor a cost-
reimbursable contract while contracting personnel at Hanscom AFB and Warner Robins
AFB did not always implement the interim rule. Air Force contracting personnel did not
ensure that adequate Government resources were available for 23 contracts, valued at
approximately $7.4 billion,6 of the 156 contracts reviewed. Contracting personnel at
Hanscom AFB and Warner Robins AFB stated they retained the monitoring duties at the
contracting level but did not document the decision in the contract files, or did not assign
a COR because the contract values were minimal and other awards received priority for
the limited COR resources available.

Air Force contracting personnel described their contracting procedures and explained
their interpretation of the interim rule at each site visited. Air Force contracting
personnel documented adequate Government resources available to monitor the contract



6
    The contracts, valued at approximately $7.4 billion, include 2 contracts valued at about $7.35 billion.


                                                       11

award in the COR nomination letter, appointment letter, and training certificate.
Site-specific explanations of contracts which did not satisfy the interim rule included:

   	 Hanscom AFB contracting personnel stated that contracts issued to support a
      federally funded research and development center did not require a COR.
   	 Warner Robins AFB contracting personnel stated that SBIR contracts do not
      always have oversight personnel because they are for an experimental product
      that may or may not turn into a valuable purchase.

We interpreted the interim rule to require documentation of adequate Government
resources available to monitor award without an exception for federally funded research
and development centers or SBIR contracts.

Air Force contracting officials should require contracting officers to document instances
where the contracting office maintained the contracting officer representative functions
on cost-reimbursable contracts. Table 5 shows the total contracts reviewed at each site
and the number of those contracts that met this section of the interim rule. Contracting
personnel at Warner Robins AFB did not meet the interim rule requirement to ensure
adequate Government resources available to monitor contract award for 17 of the
44 contracts reviewed.

       Table 5. Results of Government Resources Available to Monitor Award
      Site                  Total Contracts            Did Not Meet Interim Rule
Offutt AFB                         50                               1
AFRL Rome                          34                               0
Hanscom AFB                        28                               5
Warner Robins
                                   44                              17
AFB
 Total                            156                              23


Verifying That an Adequate Accounting System Was in
Place Varied by Site
Contracting personnel at Offutt AFB and AFRL Rome generally met the interim rule
requirement to ensure that an adequate accounting system was in place, whereas
contracting personnel at Hanscom AFB and Warner Robins AFB did not always meet the
interim rule. Air Force contracting personnel did not verify the adequacy of the
contractor’s accounting system for 42 contracts, valued at approximately $1 billion, of
the 156 contracts reviewed because contracting personnel stated they were not able to
obtain timely assistance from DCAA, did not question the accounting system because the
contract was awarded to a well-established contractor, or believed the accounting system
was adequate because the award was issued under the SBIR program.




                                            12

Air Force contracting personnel described their contracting procedures and explained
their interpretation of the interim rule at each site visited. Air Force contracting
personnel documented the adequacy of the contractor’s accounting system with the
DCAA report included in the contract documentation or with the reference to a DCAA
report in the Price Negotiation Memorandum. We interpreted the interim rule to require
a judgment from the contracting officer on the adequacy of the contractor’s accounting
system regardless of whether a DCAA audit is available. Offutt AFB contracting
personnel stated that DCAA could not always provide up-to-date audits and that
contracting personnel are forced to rely on outdated information.

We accepted SBIR contracts referencing an approved accounting system required to
participate in the SBIR program. Warner Robins AFB contracting personnel stated that
awards under the SBIR program were considered to have adequate accounting systems
because contractors must have an adequate accounting system in place to qualify for the
program.

Table 6 shows the total contracts reviewed at each site and the number of those contracts
that met this section of the interim rule. Contracting personnel at Warner Robins AFB
did not meet the interim rule requirement to document the adequacy of the contractor’s
accounting system for 27 of the 44 contracts reviewed. Air Force officials should
emphasize the importance of the Federal Acquisition Regulation revisions to contracting
personnel for the use of cost-reimbursable contracts.

              Table 6. Results of Adequate Accounting System in Place
         Site                   Total Contracts        Did Not Meet Interim Rule
Offutt AFB                            50                             5
AFRL Rome                             34                             0
Hanscom AFB                           28                            10
Warner Robins AFB                     44                            27
 Total                               156                            42

Guidance Differs Between FAR and DFARS
During our review, we noted a contradiction between the interim rule requirements and
the Defense Federal Acquisition Regulation Supplement (DFARS) 242.75 “Contractor
Accounting Systems and Related Controls,” regarding the adequacy of the contractor’s
accounting system. DFARS 242.75 allowed the contracting officer to award a contract to
a contractor with an inadequate accounting system. DFARS allowed the contracting
officer to withhold payments as an incentive for corrective action if a contractor failed to
make corrections to an inadequate accounting system. At Warner Robins AFB
contracting personnel followed this regulation and withheld a portion of the vouchers
submitted for progress payments as an incentive for corrective action. The interim rule
does not allow any exceptions to award a cost-reimbursable contract to a contractor that
does not have an adequate accounting system in place at the time of contract award.
Director, Defense Procurement and Acquisition Policy, should initiate a process to
eliminate the potential contradiction between Defense Federal Acquisition Regulation


                                            13

Supplement 242.75 and the interim revisions for Federal Acquisition Regulation 7.105
“Contents of Written Acquisition Plans,” 16.104 “Factors in Selecting Contract Types,”
and 42.302 “Contract Administration Functions” relating to contracting officers awarding
cost-reimbursable contracts to contractors when the contracting officer determines the
contractor’s accounting system is inadequate.

Firm-Fixed-Price Contracts Properly Classified
Air Force contracting personnel classified firm-fixed-price contracts correctly and did not
avoid the increased cost-reimbursable contract documentation requirements by purposely
miscoding contracts. We reviewed 181 contracts identified as firm-fixed-price contracts
in Electronic Document Access that were issued by contracting personnel at the four Air
Force sites visited. We reviewed some contracts that contained a small cost-reimbursable
portion within the contract, but if the contract was predominately firm-fixed-price, we
considered the award classified correctly. We determined that Air Force personnel
properly classified these contracts.

Conclusion
Air Force contracting personnel did not consistently implement the interim rule for
75 contracts, valued at approximately $8.8 billion, of the 156 contracts reviewed, valued
at approximately $10.5 billion. Air Force contracting personnel fully met the interim rule
on 81 contracts, valued at approximately 1.7 billion, of the 156 contracts reviewed at the
four Air Force sites visited. Air Force contracting personnel continue to issue
cost-reimbursable contracts that may inappropriately increase the Air Force’s contracting
risks because cost-reimbursable contracts provide less incentive for contractors to control
costs. Air Force contracting personnel can do a better job planning, issuing, and
overseeing cost-reimbursable contracts by fully implementing the FAR revisions. We
included one DoD-wide recommendation in this report and will include other DoD-wide
recommendations in the summary report issued at the completion of this series of reports.

Recommendations, Management Comments, and Our
Response
1. We recommend that the Deputy Assistant Secretary of the Air Force
(Contracting):

   a.	 Emphasize the importance of the Federal Acquisition Regulation revisions to
       contracting personnel for the use of cost-reimbursable contracts.

Department of the Air Force Comments
The Deputy Assistant Secretary of the Air Force (Contracting), agreed and stated that a
memorandum will be issued by May 31, 2013, emphasizing the importance of FAR
revisions identified in the report.




                                            14

   b.	 Promote the issuance of more hybrid contracts that contain multiple line
       items for the same service or item with different price structure so that
       contract type can be selected on each task or delivery order. 

Department of the Air Force Comments
The Deputy Assistant Secretary of the Air Force (Contracting) agreed and stated that a
memorandum will be issued by May 31, 2013, which will include a reminder to consider
issuing hybrid indefinite-delivery indefinite-quantity contracts to allow contract type to
be selected at the task or delivery order level.

   c. 	 Establish better communication channels between the requiring component,
        contracting personnel, and contract monitors to more effectively identify
        opportunities to transition away from cost-reimbursable contracts when
        possible.

Department of the Air Force Comments
The Deputy Assistant Secretary of the Air Force (Contracting) agreed and stated that an
element will be included in the Air Force Other Contracting Acquisition Plan template,
by May 31, 2013, which prompts discussion of opportunities to transition to
firm-fixed-price contracts.

   d. 	 Require contracting officers to expressly document instances where the
        contracting officer maintained the contracting officer representative
        functions on cost-reimbursable contracts.
        
Department of the Air Force Comments
The Deputy Assistant Secretary of the Air Force (Contracting) agreed and stated that a
memorandum will be issued by May 31, 2013, emphasizing that contracting officers must
document within the contract file the decision to retain or delegate surveillance activities
for cost-reimbursable contracts.

Our Response
Comments from the Deputy Assistant Secretary of the Air Force (Contracting) are
responsive and no further comments are required.

2. We recommend that the Director of Contracting, Warner Robins Air Force
Sustainment Center adjust templates to require approval one level above the
contracting officer for the use of cost-reimbursable contracts.

Warner Robins Air Force Sustainment Center Comments
The Director of Contracting, Warner Robins Air Force Sustainment Center agreed and
noted that the current template for the Air Force Streamlined Acquisition Strategy
Summary requires approval one level above the contracting officer for cost-reimbursable
contracts. The Director of Contracting, Warner Robins Air Force Sustainment Center
also stated that in the event a Streamlined Acquisition Strategy Summary is not required,



                                            15

the contracting officer will complete a Determinations and Findings for cost-reimbursable
contracts which will require approval one level above the contracting officer. This
requirement will be emphasized during the quarterly contracting officer training session
held by May 31, 2013.

Our Response
Comments from the Director of Contracting, Warner Robins Air Force Sustainment
Center are responsive and no further comments are required.

3. We recommend that the Director, Defense Procurement and Acquisition Policy,
initiate a process to eliminate the potential contradiction between Defense Federal
Acquisition Regulation Supplement 242.75 “Contractor Accounting Systems and
Related Controls,” and the interim revisions for Federal Acquisition Regulation
7.105 “Contents of Written Acquisition Plans,” 16.104 “Factors in Selecting
Contract Types,” and 42.302 “Contract Administration Functions” relating to
contracting officers awarding cost-reimbursable contracts to contractors when the
contracting officer determines the contractor’s accounting system is inadequate.

Defense Procurement and Acquisition Policy Comments
The Director, Defense Procurement and Acquisition Policy, agreed and stated that they
will review any potential contradictions between the Defense Federal Acquisition
Regulation Supplement 242.75 “Contractor Accounting Systems and Related Controls,”
and the expanded Federal Acquisition Regulation requirements and take appropriate
action, if required.

Our Response
Comments from the Director, Defense Procurement and Acquisition Policy, are
responsive and no further comments are required.




                                           16

Appendix A. Scope and Methodology
We conducted this performance audit from February 2012 through February 2013 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We plan to issue separate reports for each Service, one report to include the Missile
Defense Agency and the Defense Microelectronics Activity, as well as a summary report.
This is the first report in the planned series of reports and includes contracts issued by the
Department of the Air Force at the four sites visited. This audit was required by the
FY 2009 National Defense Authorization Act, section 864, “Regulation on the Use of
Cost Reimbursement Contracts.” Our objective was to determine whether DoD has
complied with interim Federal Acquisition Regulation revisions on the use of
cost-reimbursable contracts.

To determine compliance with the interim rule, our methodology included reviewing
basic contract and task and delivery order files that varied slightly from the specific
interim rule requirements. In cases where the interim rule required areas to be
documented in the acquisition plan, we expanded our review to the entire contract file
because, in many cases, the acquisition plan was written and approved before the interim
rule was issued. Additionally, we focused our audit to assess how contracting personnel
determined that adequate resources were available to monitor the award by determining
whether a contracting officer’s representative (COR) or similar person was assigned to
the contract at issuance. We did not determine whether the person assigned had an
appropriate workload or was properly geographically located to monitor the award. We
identified the assignment of a COR on the contracts rather than testing the adequacy of
the COR assigned to the contract reviewed. Additionally, we determined whether the
contracting officer documented that the contractor’s accounting system was adequate at
contract award and not during the entire period of contract performance as required by
the interim rule.

Universe and Sample Information
We visited four Air Force sites and reviewed 156 nonstatistically selected contracts with
cost-reimbursable portions valued at approximately $10.5 billion. We used the Federal
Procurement Data System-Next Generation to identify a sample of cost-reimbursement,
labor hour, and time and materials contracts issued by the Air Force from March 17, 2011
through February 29, 2012. We included task and delivery orders issued after
March 17, 2011, in our sample even if the basic contract was issued before the interim
rule. We limited the review to contracts valued at $150,000 or above. We removed
contract modifications from our sample because they were not new contract awards. We
eliminated Air Force contracts that were issued on General Service Administration
contracts. We queried all Air Force cost-reimbursable contracts from March 17, 2011


                                             17

through February 29, 2012. Our universe consisted of 3,808 contract actions on
1,378 contracts, valued at approximately $26 billion; however, this includes the value of
all potential options and any firm-fixed-price portions of the contracts. We selected the
four Air Force sites based on a combination of cost-reimbursable award amounts and
number of cost-reimbursement contracts and task or delivery orders issued. The Air
Force sites visited were Hanscom Air Force Base (AFB), Massachusetts; Offutt AFB,
Nebraska; Air Force Research Laboratory, Rome, New York; and Warner Robins AFB,
Georgia.

Our nonstatistical sample consisted of 50 contracts from each of the four Air Force sites
to total 200 contracts. We reviewed as many of the 50 contracts that were readily
available at each site. We removed 44 contracts total from our combined sample of
200 contracts because they were misclassified and were actually firm-fixed-price
contracts, not located on the site, and were not reviewed due to time constraints during
the site visit, or for other reasons.

Review of Documentation and Interviews
We reviewed documentation maintained by the Air Force’s contracting offices. The
documents reviewed included acquisition plans, business clearance memorandums,
pre/post price negotiation memorandums, determination and findings for contract type,
COR designation letters, COR training certificates, Defense Contract Audit Agency audit
reports, Defense Contract Management Agency reports, and other documentation
included in the contract file to comply with the interim rule. We reviewed contract award
documentation including basic contract files from FY 2000 through FY 2012. We
interviewed Air Force personnel responsible for awarding contracts as well as quality
assurance personnel, such as CORs, who were responsible for monitoring the contracts.

At each Air Force site visited, we determined whether Air Force contracting personnel
implemented the interim rule by documenting:

      the approval for the cost-reimbursable contract was at least one level above the
       contracting officer;
      the justification for the use of cost-reimbursable, time and materials, or labor-hour
       contracts;
      how the requirements under contract could transition to firm-fixed-price in the
       future;
      that Government resources were available to monitor the cost-reimbursable
       contract; and
      whether the contractor had an adequate accounting system in place during the
       entire contract.

We tested Air Force contracts to determine whether Air Force contracting personnel were
misclassifying cost-reimbursable contracts as firm-fixed-price contracts. We used
Federal Procurement Data System-Next Generation and Electronic Document Access to




                                            18

review the firm-fixed-price contracts. We reviewed between 40 and 50 firm-fixed-price
contracts at each site to determine whether contracts contained cost-reimbursable line
items.

We experienced a scope limitation at Warner Robins AFB that had minimal impact on
our audit. At this site, 10 of the 43 contracts we reviewed had classified portions. To
keep the audit and report at an unclassified level we did not review classified documents.
However, we determined that the classified documents likely made the awards in
compliance with the interim rule requirements. Additionally, because these awards were
only a small portion of the contracts reviewed, the results and our recommendations were
not significantly affected.

Use of Computer-Processed Data
We did not rely on computer-processed data for this audit.

Use of Technical Assistance
The DoD Office of Inspector General Quantitative Methods Division (QMD) assisted
with the audit. We worked with QMD during our planning phase to determine the
number of sites per Service to visit and the number of contracts that should be reviewed
at each site. QMD determined that we should visit 3 to 5 sites per Service and have a
nonstatistical sample of at least 30 contracts per site. We will issue separate reports for
each Service, one combined report for the Defense Agency and Activity, and a summary
report. We decided to review all contracts if less than 30 contracts.

Prior Coverage
During the last 5 years, the Government Accountability Office, the Department of
Homeland Security Inspector General, the General Services Administration Inspector
General, and the National Aeronautics and Space Administration Inspector General have
issued four reports discussing oversight of the use of cost-reimbursable contracts.
Unrestricted Government Accountability Office reports can be accessed over the Internet
at http://www.gao.gov. Unrestricted Department of Homeland Defense Inspector
General reports can be accessed at www.oig.dhs.gov. Unrestricted General Services
Administration Inspector General reports can be accessed at www.gsaig.gov. Unrestricted
National Aeronautical and Space Administration Inspector General reports can be
accessed at http://oig.nasa.gov.

Government Accountability Office
Government Accountability Office Report No. GAO-09-921, “Contract Management:
Extent of Federal Spending Under Cost-Reimbursement Contracts Unclear and Key
Controls Not Always Used,” September 30, 2009

Department of Homeland Security Inspector General
Department of Homeland Security Report No. OIG-12-133, “Department of Homeland
Security Compliance with the Federal Acquisition Regulation Revisions on Proper Use
and Management of Cost-Reimbursement Contracts,” September 28, 2012


                                            19

General Services Administration Inspector General
General Services Administration Report No. A120052/Q/A/P120004, “Audit of GSA’s
Cost-Reimbursement Contracts,” March 30, 2012

National Aeronautics and Space Administration
Inspector General
National Aeronautical and Space Administration Inspector General Report No.
IG-12-014, “Final Memorandum on NASA’s Compliance with Provisions of the Duncan
Hunter National Defense Authorization Act 2009–Management of Cost-Reimbursement
Contracts,” March 14, 2012




                                       20

Appendix B. Federal Acquisition Circular
2005-50 Issued March 16, 2011




          This section intentionally left blank




                                21

Appendix B. Federal Acquisition Circular
2005-50 Issued March 16, 2011




                     22

Appendix B. Federal Acquisition Circular
2005-50 Issued March 16, 2011




                     23

Appendix B. Federal Acquisition Circular
2005-50 Issued March 16, 2011




                     24

Appendix B. Federal Acquisition Circular
2005-50 Issued March 16, 2011




                     25

  Appendix C. Contract Compliance with Interim Rule Requirements
                                                   (Base Documentation Applies to Orders)

                                 Order
                                                                                                                             Accounting   Not-To-Exceed
        Contract Number        Number (if        Site Location      Approval       Justification   Transition   Monitoring
                                                                                                                              System        CR Value
                               applicable)
 1     FA1500-10-D-0001          0002            Offutt AFB            No              No             No           Yes          No        $      439,088
 2     FA1500-10-D-0002          0003            Offutt AFB            No              No             No           No           Yes            4,923,788
 3     FA1500-10-D-0003          0002            Offutt AFB            No              No             No           Yes          No               449,651
 4     FA1500-10-D-0004          0002            Offutt AFB            No              No             No           Yes          No             2,558,590
 5     FA1500-10-D-0005          0004            Offutt AFB           Yes              No             No           Yes          No             3,499,964
 6     FA1500-10-D-0010          0005            Offutt AFB           Yes              Yes            Yes          Yes          Yes              199,989
 7     FA4600-06-D-0003          0048            Offutt AFB            No              No             No           Yes          No            15,254,382
 8     FA4600-08-D-0001          0015            Offutt AFB           Yes              Yes            Yes          Yes          Yes            3,091,488
 9     FA4600-08-D-0002          5066            Offutt AFB           Yes              Yes            Yes          Yes          Yes            8,699,930
10     FA4600-08-D-0002          5072            Offutt AFB           Yes              Yes            Yes          Yes          Yes            2,109,313
11     FA4600-08-D-0002          5073            Offutt AFB           Yes              Yes            Yes          Yes          Yes              107,276
12     FA4600-08-D-0002          5074            Offutt AFB           Yes              Yes            Yes          Yes          Yes              105,582
13     FA4600-08-D-0002          5076            Offutt AFB           Yes              Yes            Yes          Yes          Yes           11,900,919
14     FA4600-09-D-0008          0006            Offutt AFB           Yes              Yes            Yes          Yes          Yes            3,043,083
15     HC1047-05-D-4000          0169            Offutt AFB           Yes              No             No           Yes          Yes              991,572
16     HC1047-05-D-4000          0173            Offutt AFB            No              No             No           Yes          Yes           23,797,720
17     HC1047-05-D-4000          0177            Offutt AFB            No              No             No           Yes          Yes           24,293,509
18     HC1047-05-D-4000          0180            Offutt AFB            No              No             No           Yes          Yes           19,999,995
19     HC1047-05-D-4000          0183            Offutt AFB            No              No             No           Yes          Yes           24,937,888
20     HC1047-05-D-4000          0186            Offutt AFB            No              No             No           Yes          Yes            4,900,000
Acronyms used throughout Appendix C are defined on the final page of Appendix C.




                                                                            26
  Appendix C. Contract Compliance with Interim Rule Requirements
                                                   (Base Documentation Applies to Orders)

                                 Order
                                                                                                                             Accounting   Not-To-Exceed
        Contract Number        Number (if        Site Location      Approval       Justification   Transition   Monitoring
                                                                                                                              System        CR Value
                               applicable)
21     HC1047-05-D-4000          0187            Offutt AFB           Yes              No             No           Yes          Yes           49,853,499
22     HC1047-05-D-4000          0190            Offutt AFB            No              No             No           Yes          Yes           25,135,974
23     HC1047-05-D-4000          0191            Offutt AFB            No              No             No           Yes          Yes           20,394,077
24     HC1047-05-D-4000          0195            Offutt AFB           Yes              No             No           Yes          Yes           31,730,294
25     HC1047-05-D-4000          0201            Offutt AFB            No              No             No           Yes          Yes           19,389,442
26     HC1047-05-D-4005          0179            Offutt AFB           Yes              Yes            Yes          Yes          Yes            4,955,555
27     HC1047-05-D-4005          0176            Offutt AFB           Yes              Yes            Yes          Yes          Yes            6,795,368
28     HC1047-05-D-4005          0181            Offutt AFB           Yes              Yes            Yes          Yes          Yes           24,787,307
29     HC1047-05-D-4005          0183            Offutt AFB           Yes              Yes            Yes          Yes          Yes           24,312,345
30     HC1047-05-D-4005          0190            Offutt AFB           Yes              Yes            Yes          Yes          Yes           49,181,949
31     HC1047-05-D-4005          0195            Offutt AFB           Yes              Yes            Yes          Yes          Yes           31,730,294
32     HC1047-05-D-4005          0197            Offutt AFB           Yes              Yes            Yes          Yes          Yes           36,688,145
33     HC1047-05-D-4005          0201            Offutt AFB           Yes              Yes            Yes          Yes          Yes           24,690,117
34     HC1047-05-D-4005          0212            Offutt AFB           Yes              Yes            Yes          Yes          Yes           48,785,310
35     HC1047-05-D-4005          0222            Offutt AFB           Yes              Yes            Yes          Yes          Yes           42,637,576
36     SP0700-00-D-3180          0696            Offutt AFB           Yes              Yes            No           Yes          Yes            4,762,556
37     SP0700-00-D-3180          0699            Offutt AFB           Yes              Yes            No           Yes          Yes           22,894,893
38     SP0700-00-D-3180          0714            Offutt AFB           Yes              Yes            No           Yes          Yes           39,432,909
39     SP0700-00-D-3180          0715            Offutt AFB           Yes              Yes            No           Yes          Yes            3,548,838
Acronyms used throughout Appendix C are defined on the final page of Appendix C.




                                                                            27
  Appendix C. Contract Compliance with Interim Rule Requirements
                                                   (Base Documentation Applies to Orders)

                                 Order
                                                                                                                             Accounting   Not-To-Exceed
        Contract Number        Number (if        Site Location      Approval       Justification   Transition   Monitoring
                                                                                                                              System        CR Value
                               applicable)
40     SP0700-00-D-3180          0716            Offutt AFB           Yes              Yes            No           Yes          Yes            14,738,940
41     SP0700-00-D-3180          0725            Offutt AFB           Yes              Yes            No           Yes          Yes            22,857,886
42     SP0700-00-D-3180          0728            Offutt AFB           Yes              Yes            No           Yes          Yes             4,859,448
43     SP0700-00-D-3180          0731            Offutt AFB           Yes              Yes            No           Yes          Yes              296,896
44     SP0700-03-D-1380          0410            Offutt AFB           Yes              Yes            Yes          Yes          Yes            24,732,132
45     SP0700-03-D-1380          0411            Offutt AFB           Yes              Yes            Yes          Yes          Yes             8,770,191
46     SP0700-03-D-1380          0412            Offutt AFB           Yes              Yes            Yes          Yes          Yes             3,965,278
47     SP0700-03-D-1380          0416            Offutt AFB           Yes              Yes            Yes          Yes          Yes            13,138,273
48     SP0700-03-D-1380          0428            Offutt AFB           Yes              Yes            Yes          Yes          Yes            23,747,897
49     SP0700-03-D-1380          0437            Offutt AFB           Yes              Yes            Yes          Yes          Yes             7,923,168
50     SP0700-03-D-1380          0446            Offutt AFB           Yes              Yes            Yes          Yes          Yes             9,183,982
           Offutt AFB
                                                                       37               33            25           49           45        $   801,224,266
            Subtotal:
51     FA8750-11-C-0160                          AFRL Rome            Yes              Yes            Yes          Yes          Yes             5,893,139
52     FA8750-11-C-0173                          AFRL Rome            Yes              Yes            Yes          Yes          Yes             1,867,550
53     FA8750-11-C-0200                          AFRL Rome            Yes              Yes            Yes          Yes          Yes            49,849,498
54     FA8750-11-C-0201                          AFRL Rome            Yes              Yes            Yes          Yes          Yes            34,033,276
55     FA8750-11-C-0205                          AFRL Rome            Yes              Yes            Yes          Yes          Yes              750,000
56     FA8750-11-C-0209                          AFRL Rome            Yes              Yes            Yes          Yes          Yes              749,971
57     FA8750-11-C-0252                          AFRL Rome            Yes              Yes            Yes          Yes          Yes            10,000,000
Acronyms used throughout Appendix C are defined on the final page of Appendix C.




                                                                            28
  Appendix C. Contract Compliance with Interim Rule Requirements
                                                   (Base Documentation Applies to Orders)

                                 Order
                                                                                                                             Accounting   Not-To-Exceed
        Contract Number        Number (if        Site Location      Approval       Justification   Transition   Monitoring
                                                                                                                              System        CR Value
                               applicable)
58     FA8750-11-C-0249                          AFRL Rome            Yes              Yes            Yes          Yes          Yes            7,469,343
59     FA8750-12-C-0021                          AFRL Rome            Yes              Yes            Yes          Yes          Yes           15,202,680
60     FA8750-12-C-0072                          AFRL Rome            Yes              Yes            Yes          Yes          Yes              499,048
61     FA8750-12-C-0105                          AFRL Rome            Yes              Yes            Yes          Yes          Yes            9,999,919
62     FA8750-12-C-0117                          AFRL Rome            Yes              Yes            Yes          Yes          Yes              489,637
63     FA8750-12-C-0118                          AFRL Rome            Yes              Yes            Yes          Yes          Yes              458,969
64     FA8750-08-D-0001          0008            AFRL Rome            Yes              Yes            Yes          Yes          Yes            4,489,213
65     FA8750-08-D-0001          0010            AFRL Rome            Yes              Yes            No           Yes          Yes              259,931
66     FA8750-08-D-0206          0009            AFRL Rome            Yes              Yes            Yes          Yes          Yes              686,647
67     FA8750-09-D-0182          0018            AFRL Rome            Yes              Yes            Yes          Yes          Yes            2,254,674
68     FA8750-10-D-0197          0003            AFRL Rome            Yes              Yes            Yes          Yes          Yes              713,724
69     FA8750-11-D-0157          0003            AFRL Rome            Yes              Yes            Yes          Yes          Yes            1,297,695
70     FA8750-11-C-0064                          AFRL Rome            Yes              Yes            Yes          Yes          Yes           23,699,918
71     FA8750-09-D-0138          0008            AFRL Rome            Yes              Yes            Yes          Yes          Yes              542,728
72     FA8750-09-D-0139          0012            AFRL Rome            Yes              Yes            Yes          Yes          Yes              609,966
73     FA8750-09-D-0140          0005            AFRL Rome            Yes              Yes            Yes          Yes          Yes              975,986
74     FA8750-09-D-0195          0007            AFRL Rome            Yes              Yes            Yes          Yes          Yes              624,996
75     FA8750-09-D-0195          0008            AFRL Rome            Yes              Yes            Yes          Yes          Yes            3,372,705
76     FA8750-09-D-0195          0011            AFRL Rome            Yes              Yes            Yes          Yes          Yes              482,471
Acronyms used throughout Appendix C are defined on the final page of Appendix C.




                                                                            29
  Appendix C. Contract Compliance with Interim Rule Requirements
                                                   (Base Documentation Applies to Orders)

                                 Order
                                                                                                                             Accounting   Not-To-Exceed
        Contract Number        Number (if        Site Location      Approval       Justification   Transition   Monitoring
                                                                                                                              System        CR Value
                               applicable)
77     FA8750-11-C-0227                          AFRL Rome            Yes              Yes            Yes          Yes          Yes                393,530
78     FA8750-11-C-0231                          AFRL Rome            Yes              Yes            Yes          Yes          Yes                577,414
79     FA8750-12-C-0098                          AFRL Rome            Yes              Yes            Yes          Yes          Yes                662,431
80     FA9875-11-C-0108                          AFRL Rome            Yes              Yes            Yes          Yes          Yes              5,944,429
81     FA8750-11-C-0267                          AFRL Rome            Yes              Yes            Yes          Yes          Yes              1,406,714
82     FA8750-12-C-0095                          AFRL Rome            Yes              Yes            Yes          Yes          Yes              1,033,509
83     FA8750-11-C-0180                          AFRL Rome            Yes              Yes            Yes          Yes          Yes             11,619,193
84     FA8750-12-C-0015                          AFRL Rome            Yes              Yes            Yes          Yes          Yes                598,915
          AFRL Rome
                                                                       34               34            33           34           34        $    199,509,819
           Subtotal:
85     FA8721-11-D-0001                         Hanscom AFB           Yes              Yes            Yes          Yes          Yes             88,500,000
86     FA8721-08-D-0001          0021           Hanscom AFB            No              No             No           No           No               2,182,965
87     FA8721-11-D-0001          0003           Hanscom AFB           Yes              Yes            Yes          Yes          Yes              4,804,817
88     FA8307-11-C-0010                         Hanscom AFB           Yes              Yes            No           Yes          Yes             34,134,114
89     FA8730-12-C-0004                         Hanscom AFB           Yes              Yes            Yes          Yes          No              76,619,379
90     FA8723-10-D-0001          0007           Hanscom AFB           Yes              Yes            Yes          Yes          No                 463,688
91     F19628-01-D-0016          0025           Hanscom AFB           Yes              Yes            Yes          Yes          Yes                192,000
92     FA8771-04-D-0002          RSCC           Hanscom AFB           Yes              Yes            No           No           No                 544,943
93     FA8721-11-C-0007                         Hanscom AFB           Yes              Yes            No           No           Yes           3,676,574,986
94     FA8721-12-C-0007                         Hanscom AFB           Yes              Yes            No           No           Yes           3,676,574,986
Acronyms used throughout Appendix C are defined on the final page of Appendix C.




                                                                            30
  Appendix C. Contract Compliance with Interim Rule Requirements
                                                   (Base Documentation Applies to Orders)

                                 Order
                                                                                                                             Accounting   Not-To-Exceed
        Contract Number        Number (if        Site Location      Approval       Justification   Transition   Monitoring
                                                                                                                              System        CR Value
                               applicable)
95     FA8730-08-D-0001          0064           Hanscom AFB           Yes              Yes            Yes          Yes          No              2,477,761
96     FA8721-12-C-0001                         Hanscom AFB           Yes              Yes            Yes          Yes          Yes               238,000
97     FA8523-04-D-0002          RS10           Hanscom AFB            No              Yes            Yes          Yes          No                 33,340
98     F19628-01-D-0016          0078           Hanscom AFB           Yes              Yes            No           Yes          No             11,156,215
99     FA8307-12-C-0003                         Hanscom AFB           Yes              Yes            No           No           No                925,902
100    FA8707-09-D-0004          0027           Hanscom AFB           Yes              Yes            Yes          Yes          Yes             1,469,288
101    FA8707-11-D-0001          0007           Hanscom AFB           Yes              Yes            Yes          Yes          No                 41,130
102    FA8720-10-D-0001          0004           Hanscom AFB           Yes              Yes            Yes          Yes          No             27,983,811
103    FA8720-10-D-0004          0003           Hanscom AFB           Yes              Yes            Yes          Yes          Yes             9,716,831
104    FA8707-11-D-0002          0003           Hanscom AFB           Yes              Yes            Yes          Yes          Yes               182,038
105    FA8707-11-D-0002          0005           Hanscom AFB           Yes              Yes            Yes          Yes          Yes               366,165
106    FA8707-11-D-0003                         Hanscom AFB           Yes              Yes            Yes          Yes          Yes            55,259,368
107    FA8707-11-D-0003          0001           Hanscom AFB           Yes              Yes            Yes          Yes          Yes               496,523
108    FA8707-11-D-0003          0008           Hanscom AFB           Yes              Yes            Yes          Yes          Yes               211,074
109    FA8707-11-C-0012                         Hanscom AFB            No              Yes            Yes          Yes          Yes             2,835,371
110    FA8707-12-C-0001                         Hanscom AFB           Yes              Yes            Yes          Yes          Yes           483,750,912
111    FA8720-10-D-0005          0002           Hanscom AFB           Yes              Yes            Yes          Yes          Yes             4,477,178
112    FA8720-10-D-0002          0002           Hanscom AFB           Yes              Yes            Yes          Yes          Yes            22,878,377
        Hanscom AFB
                                                                       25               27            21           23           18        $ 8,185,091,164
           Subtotal:
Acronyms used throughout Appendix C are defined on the final page of Appendix C.




                                                                            31
  Appendix C. Contract Compliance with Interim Rule Requirements
                                                   (Base Documentation Applies to Orders)

                                 Order
                                                                                                                             Accounting   Not-To-Exceed
        Contract Number        Number (if        Site Location      Approval       Justification   Transition   Monitoring
                                                                                                                              System        CR Value
                               applicable)
113    FA8509-12-C-0001                      Warner Robins AFB        Yes              Yes            Yes          Yes          Yes           23,161,368
114    FA8505-12-D-0002                      Warner Robins AFB         No              Yes            Yes          Yes          Yes            3,714,728
115    FA8505-11-C-0003                      Warner Robins AFB        Yes              Yes            Yes          Yes          No             7,172,845
116    FA8505-10-D-0002          0006        Warner Robins AFB        Yes              Yes            Yes          No           No               300,000
117    F33657-01-D-0026          RJ61        Warner Robins AFB        Yes              Yes            Yes          Yes          No               346,414
118    F09603-00-D-0210          0130        Warner Robins AFB         No              No             No           Yes          No            99,512,589
119    F09604-03-D-0057          9001        Warner Robins AFB         No              No             No           No           No             8,990,693
120    FA8527-08-D-0002          0010        Warner Robins AFB         No              No             No           No           No             2,290,373
121    FA8527-08-D-0008          0025        Warner Robins AFB         No              No             No           No           No            30,465,407
122    FA8527-10-D-0001          0012        Warner Robins AFB         No              No             No           No           No               557,010
123    FA8527-10-D-0005          0004        Warner Robins AFB         No              Yes            No           No           No             6,140,968
124    FA8527-10-D-0005          0006        Warner Robins AFB         No              Yes            No           No           No             2,797,979
125    FA8771-04-D-0004          Q614        Warner Robins AFB        Yes              Yes            Yes          Yes          No            18,754,342
126    FA8501-11-C-0048                      Warner Robins AFB         No              Yes            Yes          No           No               739,204
127    FA8501-11-C-0012                      Warner Robins AFB         No              Yes            Yes          No           Yes              399,979
128    FA8501-05-D-0002          0061        Warner Robins AFB        Yes              Yes            Yes          Yes          Yes            4,282,881
129    FA8540-12-C-0007                      Warner Robins AFB        Yes              Yes            Yes          Yes          Yes           11,112,091
130    FA8552-11-C-0009                      Warner Robins AFB         No              Yes            Yes          Yes          No             3,300,000
131    FA8552-11-C-0010                      Warner Robins AFB        Yes              Yes            Yes          Yes          Yes              774,307
Acronyms used throughout Appendix C are defined on the final page of Appendix C.




                                                                            32
  Appendix C. Contract Compliance with Interim Rule Requirements
                                                   (Base Documentation Applies to Orders)

                                 Order
                                                                                                                             Accounting   Not-To-Exceed
        Contract Number        Number (if        Site Location      Approval       Justification   Transition   Monitoring
                                                                                                                              System        CR Value
                               applicable)
132    FA8553-11-C-0005                      Warner Robins AFB        Yes              Yes            Yes          Yes          Yes            2,567,844
133    FA8553-12-C-0001                      Warner Robins AFB        Yes              Yes            Yes          Yes          Yes            1,991,156
134    FA8501-11-C-0040                      Warner Robins AFB         No              Yes            Yes          No           Yes              747,290
135    FA8501-11-C-0045                      Warner Robins AFB         No              Yes            Yes          No           No               739,161
136    FA8527-11-D-0011                      Warner Robins AFB        Yes              Yes            Yes          Yes          No           690,200,000
137    FA8528-11-C-0020                      Warner Robins AFB         No              No             No           Yes          Yes            4,615,689
138    FA8528-11-C-0003                      Warner Robins AFB        Yes              Yes            Yes          Yes          Yes          316,252,090
139    FA8501-11-C-0051                      Warner Robins AFB         No              Yes            Yes          No           No               739,863
140    FA8523-11-C-0010                      Warner Robins AFB        Yes              Yes            Yes          Yes          No             2,490,917
141    FA8525-11-C-0005                      Warner Robins AFB         No              Yes            Yes          Yes          Yes            3,449,999
142    FA8538-11-C-0007                      Warner Robins AFB         No              Yes            Yes          No           Yes            1,018,348
143    FA8538-11-C-0011                      Warner Robins AFB         No              Yes            Yes          No           No               300,000
144    FA8539-11-C-0007                      Warner Robins AFB        Yes              Yes            Yes          Yes          No               309,846
145    FA8539-11-C-0010                      Warner Robins AFB         No              Yes            Yes          Yes          No               250,000
146    FA8540-11-C-0010                      Warner Robins AFB         No              Yes            No           Yes          No             3,122,375
147    FA8540-11-C-0020                      Warner Robins AFB         No              Yes            Yes          Yes          No             4,732,156
148    FA8540-11-C-0026                      Warner Robins AFB        Yes              Yes            Yes          Yes          No             3,402,921
149    FA8540-11-D-0002                      Warner Robins AFB         No              Yes            Yes          Yes          No               345,000
150    FA8540-12-C-0002                      Warner Robins AFB        Yes              Yes            Yes          No           No               150,486
Acronyms used throughout Appendix C are defined on the final page of Appendix C.




                                                                            33
  Appendix C. Contract Compliance with Interim Rule Requirements
                                               (Base Documentation Applies to Orders)

                               Order
                              Number
                                                                                                                     Accounting   Not-To-Exceed
        Contract Number         (if          Site Location    Approval     Justification   Transition   Monitoring
                                                                                                                      System        CR Value
                             applicable
                                 )
151    FA8519-11-C-0013                   Warner Robins AFB     Yes            Yes            Yes          No           Yes              3,368,031
152    FA8501-11-C-0005                   Warner Robins AFB     Yes            Yes            Yes          Yes          Yes               694,900
153    FA8501-11-C-0010                   Warner Robins AFB     Yes            Yes            Yes          No           Yes               749,992
154    FA8522-10-D-0002        0002       Warner Robins AFB     Yes            Yes            Yes          Yes          No                749,590
155    FA9603-02-D-0101        0230       Warner Robins AFB     No             No             Yes          Yes          No               3,036,650
156    FA6643-11-D-0001        0030       Warner Robins AFB     Yes            Yes            Yes          Yes          Yes              5,322,911
     Warner Robins AFB
                                                                21              37            35           27           17        $ 1,276,160,393
           Subtotal:
          Total of All
                                                                117            131            114          133          114
     Compliant Contracts:
       Total of All Non-
                                                                39              25            42           23           42
     Compliant Contracts
     Total CR Value of All
                                                                                                                                  $ 10,461,985,642
      Contracts Reviewed
AFB           Air Force Base
AFRL          Air Force Research Lab
CR            Cost Reimbursable




                                                                      34
Department of the Air Force





                  Click to add JPEG file




                                   35
Click to add JPEG file




                 36
Click to add JPEG file




                 37
Defense Procurement and Acquisition Policy Comments





                 Click to add JPEG file




                                  38
Warner Robins Air Force Sustainment Center Comments





                Click to add JPEG file




                                 39
Click to add JPEG file




                 40
